                TIRNO-95-D-00062 and TIRNO-00-D-00011,
                        Audit of Incurred Costs
                         For Fiscal Year 2001

                                October 2003

                     Reference Number: 2004-1C-006




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                          October 27, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-95-D-00062 and TIRNO-00-D-00011, Audit of Incurred
                              Costs for Fiscal Year 2001 (Audit #20041C0201)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s Information
       Technology Segment June 10, 2002, certified final indirect cost rate proposal and
       related books and records for reimbursement of Fiscal Year 2001 incurred costs. The
       purpose of the examination was to determine the allowability and allocability of direct
       and indirect costs and to establish audit-determined indirect cost rates for December 29,
       2000, through December 27, 2001. The proposed rates apply primarily to flexibly priced
       contracts.
       The DCAA opined that the contractor’s indirect rates are acceptable as adjusted by its
       examination. Additionally, the claimed direct costs are provisionally approved pending
       final acceptance. The DCAA qualified its audit report because the results of the assist
       audits for the subcontract costs had not been received.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
